APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS,
FIRST CIRCUIT
_________
No. 19-1529
_________
UNITED STATES OF AMERICA,
Appellee,
v.
RAYMOND RODRÍGUEZ-RIVERA,
_________

Defendant, Appellant.

March 4, 2021
_________
APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
[Hon. Carmen Consuelo Cerezo, U.S. District Judge]
_________
Kevin Lerman, Research & Writing Specialist, with
whom Eric Alexander Vos, Federal Public Defender,
and Franco L. Pérez-Redondo, Assistant Federal
Public Defender, Supervisor, Appeals Division, were
on brief, for appellant.
Julia M. Meconiates, Assistant United States
Attorney, with whom W. Stephen Muldrow, United
States Attorney, and Mariana E. Bauzá-Almonte,

2a
Assistant United States Attorney, Chief, Appellate
Division, were on brief, for appellee.
_________
Before HOWARD, Chief Judge, KAYATTA, Circuit
Judge, and CASPER,* District Judge.
_________
KAYATTA, Circuit Judge.
Once again, we are called upon to consider the
circumstances in which a sentencing enhancement for
prior involvement with controlled substances is
appropriate. Section 2K2.1(a) of the United States
Sentencing Guidelines provides for certain sentencing
enhancements in situations where, among other
conditions, the defendant previously has been
convicted of controlled substance offenses.
See
U.S.S.G. § 2K2.1(a); see also § 4B1.1. Section
4B1.2(b), in turn, defines “controlled substance
offense[s].” Application Note 1 to section 4B1.2
further explains that conspiring to commit a
controlled substance offense is itself a controlled
substance offense.
In United States v. Lewis, we rejected as contrary to
binding circuit precedent the contention that
Application Note 1 overreached by adding
“conspiring” to the list of offenses contained in the
Guideline text itself. 963 F.3d 16, 21–23 (1st Cir.
2020). In so doing, we set aside as unpreserved a
narrower contention: That the term “conspiring,” as
used in Application Note 1, includes only a so-called
generic form of conspiracy that has as an element an
*

Of the District of Massachusetts, sitting by designation.

3a
overt act in furtherance of the conspiracy, and
therefore does not include a conspiracy charged under
21 U.S.C. § 846, which admittedly has no such overt
act element. Id. at 21, 26–27 (finding only no clear
error in light of circuit split).
This appeal now requires that we address that
narrower contention head-on without the leeway
afforded by plain error review. Our answer matters
because the classification of an offense as a controlled
substance
offense
often
results
in
longer
recommended sentences by raising base offense levels,
see, e.g., U.S.S.G. § 21(2.1(a), and section 846 most
commonly serves as the vehicle for charging
conspiracy offenses in federal drug cases. To date, the
six circuits that have addressed this issue have split
four to two 1 in deciding whether the absence of an
1

Compare United States v. Tabb, 949 F.3d 81, 87–89 (2d Cir.
2020) (holding that a conviction for conspiracy to commit a
controlled substance offense under section 846 qualifies as a
conviction for a controlled substance offense under U.S.S.G.
§ 4B1.2(b) and Application Note 1), United States v. RiveraConstantino, 798 F.3d 900, 903 (9th Cir. 2015) (same in the
context of U.S.S.G. § 2L1.2(b)), United States v. Sanbria-Bueno,
549 F. App’x 434, 438–39 (6th Cir. 2013) (unpublished)
(collecting cases and reaching the same conclusion under
U.S.S.G. § 2L1.2(b)), and United States v. Rodríguez-Escareno,
700 F.3d 751, 753–54 (5th Cir. 2012) (same), with United States
v. McCollum, 885 F.3d 300, 309 (4th Cir. 2018) (holding that
conviction under another federal conspiracy statute that does not
require an overt act, 18 U.S.C. § 1959(a)(5), does not qualify as a
conspiracy for the purposes of Application Note 1 to section
4B1.2), United States v. Whitley, 737 F. App’x 147, 149 (4th Cir.
2018) (unpublished) (holding that section 846 is a categorical
mismatch with generic conspiracy and therefore the
enhancement does not apply for a section 846 conviction), and
United States v. Martinez-Cruz, 836 F.3d 1305, 1314 (10th Cir.

4a
overt act requirement precludes section 846
conspiracies from qualifying as conspiracies under
either section 21K2.1(a) or section 2L1.2(b) of the
Guidelines.2
For the following reasons, we join the growing
majority of circuits and hold that a conviction under
21 U.S.C. § 846 for conspiring to commit a controlled
substance offense qualifies as a conviction for a
controlled substance offense under section 4B1.2(b) of
the Guidelines, even though section 846 does not
require proof of an overt act.
I.
On June 14, 2018, officers of the Puerto Rico Police
Department served a state-issued search warrant at
an apartment in San Juan, Puerto Rico. RodríguezRivera was inside the apartment at the time, along
with a woman and children. While conducting a
search of the apartment, police discovered a Glock
2016) (holding in the context of U.S.S.G. § 2L1.2(b) that section
846 is a categorical mismatch with generic conspiracy and that
therefore the enhancement did not apply).
2

Section 2L1.2(b)(2)(e) provides for a sentencing enhancement
for individuals who unlawfully entered or returned to the United
States if they have been convicted of three or more “drug
trafficking offenses,” i.e., “offense[s] under federal, state, or local
law that prohibit[ ] the manufacture, import, export,
distribution, or dispensing of . . . or the possession of a controlled
substance . . . with intent to manufacture, import, export,
distribute, or dispense.” U.S.S.G. § 2L1.2 cmt. n.2. Prior to 2016,
Application Note 5 to that guideline stated that drug trafficking
offenses “include the offenses of aiding and abetting, conspiring,
and attempting[ to commit such offenses.” See U.S.S.G. App. C,
Amend. 802 (effective Nov. 1, 2016). This Application Note was
deleted in the 2016 amendments to section 2L1.2. See id.

5a
pistol that had been modified to shoot automatically,
two bulletproof vests, and several dozen rounds of
ammunition. Rodríguez-Rivera took responsibility for
the contraband and was arrested. Later, during an
interview with federal agents, he provided a written
statement acknowledging possession of the firearm.
A federal grand jury returned an indictment
charging Rodríguez-Rivera with unlawful possession
of a firearm as a convicted felon, in violation of
18 U.S.C. § 922(g)(1), and unlawful possession of a
machine gun, in violation of 18 U.S.C. § 922(o). He
pled guilty to both charges.
Rodríguez-Rivera had been previously convicted of
conspiracy to distribute cocaine, cocaine base, and
heroin, in violation of 21 U.S.C. § 846, and was
sentenced to 24 months’ imprisonment for that
offense. The Probation Office’s presentence
investigation report (PSR) for the instant offense
consequently recommended that the district court
apply a controlled substance enhancement, pursuant
to section 2K2.1(a), and assigned Rodríguez-Rivera a
base offense level of 22. Rodríguez-Rivera objected,
citing an unpublished Fourth Circuit ruling, United
States v. Whitley, 737 F. App’x 147 (4th Cir. 2018), in
support of his argument that a conviction under
section 846 is not a controlled substance offense under
the Guidelines and that therefore, his base offense
level should be 20, rather than 22.
The district court agreed with Probation and applied
the enhancement, which added six and eight months
of imprisonment, respectively, to the bottom and top
of the Guidelines sentencing range. The district court
sentenced Rodríguez-Rivera to thirty-eight months’

6a
imprisonment and a three-year term of supervised
release. This appeal followed.
II.
We review de novo the district court’s interpretation
and application of the Sentencing Guidelines. United
States v. Lewis, 963 F.3d 16, 20 (1st Cir. 2020). In this
case, the district court applied section 2K2.1(a)(3),
which provides that the base offense level will be 22
if:
(A) the offense involved a (i) semiautomatic
firearm that is capable of accepting a large
capacity magazine; or (ii) firearm that is
described in 26 U.S.C. § 5845(a); and (B) the
defendant committed any part of the instant
offense subsequent to sustaining one felony
conviction of either a crime of violence or a
controlled substance offense[.]
U.S.S.G. § 2K2.1(a)(3). The existence of a qualifying
firearm is not in contention in this case, nor is there
any claim that Rodríguez-Rivera was not convicted in
2005 of conspiring to possess with intent to distribute
cocaine, cocaine base, and heroin, in violation of
21 U.S.C. § 846. Instead, the parties dispute whether
a section 846 conspiracy qualifies as the type of
conspiracy that constitutes a controlled substance
offense.
The term “controlled substance offense,” as used in
section 2K2.1(a), is defined in section 4B1.2(b) as
follows:
an offense under federal or state law,
punishable by imprisonment for a term

7a
exceeding one year, that prohibits the
manufacture, import, export, distribution, or
dispensing of a controlled substance (or a
counterfeit substance) or the possession of a
controlled substance (or a counterfeit
substance) with intent to manufacture, import,
export, distribute, or dispense.
Application Note 1 to that provision adds that a
“controlled substance offense” “include[s] the offenses
of aiding and abetting, conspiring, and attempting to
commit such offenses.” U.S.S.G. § 4B1.2 cmt. n.1.
And our controlling circuit precedent deems that
interpretation to be authoritative. See United States
v. Lewis, 963 F.3d at 21–22 (relying on United States
v. Piper, 35 F.3d 611, 617 (1st Cir. 1994) and United
States v. Fiore, 983 F.2d 1, 3–4 (1st Cir. 1992),
abrogated on other grounds by United States v.
Giggey, 551 F.3d 27, 28 (1st Cir. 2008) (en banc)).
In view of this precedent, Rodríguez-Rivera trains
his argument on the definition of the term
“conspiring” as used in Application Note 1. He defines
the term in three steps: First, in deciding what
“conspiring” means in this context, he says we should
ascertain the “generic” form of conspiracy offenses.
He then says that the generic form includes as an
element the commission of an overt act in furtherance
of the conspiracy. Finally, because a conviction under
section 846 admittedly does not have as an element
the commission of an overt act, he concludes that his
prior conviction does not qualify as a conspiracy
offense for purposes of Guidelines section 2K2.1. Two
circuits have more or less accepted this argument.
See United States v. Martinez-Cruz, 836 F.3d 1305,

8a
1309, 1314 (10th Cir. 2016); United States v.
McCollum, 885 F.3d 300, 307–09 (4th Cir. 2018).
Our skepticism focuses on the first step in
Rodríguez-Rivera’s argument: We see little sense in
identifying and adopting a generic version of the
conspiracy offense as the benchmark against which to
compare a violation of section 846. Rather, it seems
apparent that the Guidelines (especially as
interpreted in Application Note 1) tell us what type of
conspiracy offense to look for: One “that prohibits the
manufacture, import, export, distribution, or dispensing of a controlled substance . . . or the possession
of [the same].” U.S.S.G. § 4B1.2(b). Section 846, as
applied to a controlled substance offense, would seem
to qualify: By barring two or more people from
agreeing to manufacture controlled substances, for
example, it would seem to prohibit at least one
common means of drug manufacturing. 21 U.S.C.
§§ 846, 841(a).
More generally, and significantly, section 846 is part
of the Controlled Substances Act, and section 846 is
the only part of that Act that specifically makes any
form of conspiring a crime. Given our circuit precedent
-- that a controlled substance offense includes at least
some types of conspiracy -- it would be odd indeed if
the definition of a controlled substance offense
excluded the only form of conspiracy prohibited by the
Controlled Substances Act itself. “Ultimately, context
determines meaning, and we ‘do not force term-of-art
definitions into contexts where they plainly do not fit
and produce nonsense.’ ” Johnson v. United States,
559 U.S. 133, 139–40, 130 S.Ct. 1265, 176 L.Ed.2d 1
(2010) (citation omitted) (quoting Gonzales v. Oregon,

9a
546 U.S. 243, 282, 126 S.Ct. 904, 163 L.Ed.2d 748
(2006) (Scalia, J., dissenting)).
Resisting this common-sense notion that a
conspiracy under the Controlled Substances Act is a
controlled substance offense, Rodríguez-Rivera
argues that United States v. Taylor, 495 U.S. 575, 110
S.Ct. 2143, 109 L.Ed.2d 607 (1990), and its progeny
require us to apply the so-called “generic” definition of
conspiracy. In Taylor, the Court did indeed adopt the
generic definition of “burglary” as used in 18 U.S.C.
§ 924(e). 495 U.S. at 598–99, 110 S.Ct. 2143. But the
Court did so only after first determining that
Congress’s intended understanding of the term was
“not readily apparent,” id. at 580, 110 S.Ct. 2143, and
that the legislative history suggested “Congress, at
least at that time, had in mind a modern ‘generic’ view
of burglary,” id. at 589, 110 S.Ct. 2143. Adoption of
that view broadened, rather than narrowed, the scope
of encompassed crimes, in keeping with the intended
overall purpose of the Armed Career Criminal Act
(ACCA), 18 U.S.C. § 924(e). See Taylor, 495 U.S. at
581–84, 598, 110 S.Ct. 2143. Here, section 846’s
inclusion within the Controlled Substances Act and
the lack of any reference to any generic alternative in
the Act counsel against the need to search elsewhere
to know what a controlled substances conspiracy is.
Neither party has pointed to any legislative history
that would advise to the contrary.
We recognize that since Taylor, the Supreme Court
has, in the context of immigration violations, referred
to adopting the generic view of “illicit trafficking in a
controlled substance,” see Moncrieffe v. Holder,
569 U.S. 184, 192, 133 S.Ct. 1678, 185 L.Ed.2d 727
(2013) (quoting Nijhawan v. Holder, 557 U.S. 29, 37,

10a
129 S.Ct. 2294, 174 L.Ed.2d 22 (2009)) (employing the
categorical approach to determine whether marijuana
possession always qualifies as “illicit trafficking in a
controlled substance” under the Immigration and
Nationality Act), and, in dicta, referred to adopting
the generic view of various offenses listed as crimes of
violence, see Mathis v. United States, — U.S. —,
136 S. Ct. 2243, 2248, 195 L.Ed.2d 604 (2016)
(burglary, arson, extortion). In Descamps v. United
States, too, the Supreme Court looked immediately to
the generic versions of ACCA’s enumerated offenses
as the benchmark against which a predicate offense is
to be compared. 570 U.S. 254, 257, 133 S.Ct. 2276, 186
L.Ed.2d 438 (2013) (“To determine whether a past
conviction is for [an ACCA crime], courts use what has
become known as the ‘categorical approach’: They
compare the elements of the statute forming the basis
of the defendant’s conviction with the elements of the
‘generic’ crime -- i.e., the offense as commonly
understood.”). And in United States v. Capelton, we
(and the parties) assumed without discussion that we
should do the same in defining “aiding and abetting”
under Application Note 1. United States v. Capelton,
966 F.3d 1, 6–7 (1st Cir. 2020). But neither the
Supreme Court nor this court has instructed that all
terms in statutes or the Guidelines must be
understood to refer to generic versions of an offense.
To the contrary, before applying the categorical
approach in Johnson, the Court first determined what
the term “physical force” meant as used in ACCA,
without needing to search for any generic meaning.
With that definition of force in hand, the Court then
applied the categorical approach to determine

11a
whether a state offense matched that benchmark.
559 U.S. at 140–42, 130 S.Ct. 1265.
The Supreme Court’s recent decision in Shular v.
United States confirms that we are on the right track
in rejecting a generic version of conspiracy as the
benchmark against which to compare a violation of
section 846. — U.S. —, 140 S. Ct. 779, 782, 206
L.Ed.2d 81 (2020). At issue in Shular was whether a
prior conviction under Florida law for possessing with
intent to distribute cocaine was a “serious drug
offense” under ACCA, 18 U.S.C. § 924(e)(2)(A)(ii).
ACCA defines a serious drug offense as including “an
offense under State law, involving manufacturing,
distributing, or possessing with intent to manufacture
or distribute, a controlled substance.” Shular, 140 S.
Ct. at 784 (quoting 18 U.S.C. § 924(e)(2)(A)(ii)). The
defendant argued that the gerunds “manufacturing,
distributing, or possessing” need be defined by
reference to analog generic offenses. The Court
disagreed on the ground that the relevant ACCA
provisions described conduct rather than offenses
with elements. The Court reached this conclusion for
two reasons.
First, the terms themselves were “unlikely names
for generic offenses,” Shular, 140 S. Ct. at 785, in
contrast with, for example, “burglary, arson or
extortion.” Rather, the ACCA terms are more readily
viewed as descriptions of conduct. Id. Second, while
section 924(e)(2)(B)(ii) uses the formulation X is Y,
(e.g., a crime that “is burglary, arson, or extortion”),
section 924(e)(2)(A)(ii) uses the formulation X involves
Y (i.e., “an offense . . . involving manufacturing,
distributing or possessing . . . a controlled substance”).
This, too, reinforces the understanding that “the

12a
descriptive terms immediately following the word
‘involving’ identify conduct.” 140 S. Ct. at 785.
For those reasons, the Court eschewed ascertaining
the “generic” meaning of those terms before
determining whether the state law offenses were
within ACCA’s scope. Id. at 787. Instead, the Court
simply affirmed the Eleventh Circuit’s ruling that in
classifying a state offense as a controlled substance
offense it “need not search for the elements of ‘generic’
definitions”; rather, it need only ask whether the state
offense involves the requisite conduct. Id. at 784
(quoting United States v. Smith, 775 F.3d 1262, 1267
(11th Cir. 2014)).
The guideline at issue in this case -- U.S.S.G.
§ 4B1.2(b), by way of § 2K2.1 -- uses neither the X is Y
formulation nor the X involves Y formulation.
Nonetheless, it tracks the latter formulation in
relevant respects, forgoing any attempt to list
generally recognizable offenses in favor of describing
conduct
that
the
offense
need
“prohibit”
(“manufacture, import, export, distribution, or
dispensing”). This conduct is, in relevant respects,
indistinguishable from the conduct at issue in Shular.
U.S.S.G. § 4B1.2(b). So our charge under the
Guidelines is not to define or identify any generic
offense as the measure of a categorical test, but
instead to ask whether the predicate offense
“prohibits” the specified conduct.
Application Note 1 admittedly veers closer to the “X
is Y” formulation (a “ ‘controlled substance offense’
include[s] the offense[ ] of . . . conspiring”). U.S.S.G.
§ 4B1.2 cmt. n.1. However, it uses the gerund
“conspiring,” which naturally refers to conduct, rather

13a
than the offense of “conspiracy.” And “include[s]” is
not so far from “involv[es].” The Guideline itself then
makes clear that the key test is whether the aim of the
“conspiring” is certain prohibited conduct. See Piper,
35 F.3d at 19. Section 846 passes this test as well as
any generic conspiracy offense does. U.S.S.G.
§ 4B1.2(b). All in all, we see nothing sufficient to
overpower the strong sense that conspiring under
section 846 of the Controlled Substances Act was one
of many offenses the Sentencing Commission had in
mind when stating, in Application Note 1, that the
offense of conspiring to commit a controlled substance
offense is a controlled substance offense.3
Having thus concluded that determining whether an
offense is a controlled substance offense under section
2K2.1 requires only that we determine whether the
offense prohibits the conduct specified in section

3

Rodríguez-Rivera contends that we should be guided by United
States v. Benítez-Beltrán, in which this court assessed whether
Benítez-Beltrán’s prior conviction for attempted murder under
Puerto Rico law qualifies as a “crime of violence” under the
Guidelines. 892 F.3d 462, 465 (1st Cir. 2018). This court applied
the categorical approach, as laid out in Taylor, to both the
inchoate offense -- attempt -- and the underlying crime of
conviction -- murder. Id. at 466. However, Rodríguez-Rivera’s
comparison to Benítez-Beltrán fails to surmount our Shular
analysis. Section 4B1.2(a) defines a “crime of violence” as any
offense punishable by more than one year of imprisonment that
either “has as an element the use, attempted use, or threatened
use of physical force against the person of another” or is one of
several enumerated crimes, including “murder.” Id. (citing
U.S.S.G. § 4B1.2(a) (2016)). As discussed above, section 4B1.2(a)
describes offenses with elements, lending itself to the Taylor
approach, while section 4B1.2(b) describes conduct, as analyzed
above.

14a
4B1.2, our work is done without any need to identify
the elements of any “generic” conspiracy offense.
III.
As we said at the outset, we confirmed in Lewis that
circuit precedent regards an offense of conspiracy,
within the meaning of Application Note 1 to section
4B1.2 of the Guidelines, to be a controlled substance
offense under that section. On plain error review, we
left unresolved only whether conspiring under section
846 is “conspiring” within the meaning of Application
Note 1. For the foregoing reasons, we conclude that it
is. We therefore affirm Rodríguez-Rivera’s sentence.

15a
APPENDIX B
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
_________
UNITED STATES OF AMERICA,
Plaintiff,
v.
RAYMOND RODRÍGUEZ RIVERA,
_________

Defendant.

CRIMINAL 18-0402CCC
_________
April 30, 2019
_________
ORDER
_________
Defendant Raymond Rodríguez Rivera filed an
objection to his Pre-Sentence Report on March 5, 2019
(d.e. 41)1 claiming that his base offense level (BOL)
should be 20 and not 22, as determined therein. The
U.S. Probation Officer applied that BOL of 22
pursuant to U.S.S.G. § 2K2.1(a)(3) after concluding
that defendant possessed the machinegun involved in
this case subsequent to a conviction for a controlled

1

In his Motion, defendant also requested a myriad of corrections
to factual information included in the PSR (see d.e. 41, pp. 3-4).
It appears that these were all corrected in the amended PreSentence Report filed on March 28, 2019 (d.e. 46), so we do not
address them here.

16a
substances offense. Defendant contends, however,
that he does not have a prior conviction for a
controlled substance offense as defined by the U.S.
Sentencing Guidelines. The United States responded
to defendant’s objection on March 27, 2019 (d.e. 45),
agreeing with the PSR’s BOL calculation.
There is no quarrel that the offense of conviction
involves a machinegun. It is also an established fact
that in 2005 defendant was convicted in Criminal No.
03-316(HL) of conspiring to possess with the intent to
distribute cocaine, cocaine base and heroin in
violation of 21 U.S.C. § 846, for which he was
sentenced to serve a term of imprisonment of 24
months. See PSR (d.e. 46), at p. 8, paragraph 35.
Pursuant to U.S.S.G. section 2K2.1(a)(3), a BOL of 22
is applicable if the offense involved a “firearm that is
described in 26 U.S.C. § 5845(a); [i.e., a machinegun]
and . . . the defendant committed any part of the
instant offense subsequent to sustaining one felony
conviction of . . . a controlled substance offense.” The
Guidelines, in turn, define a “controlled substance
offense” in its section 4B1.2(b) as “an offense under
federal or state law, punishable by imprisonment for
a term exceeding one year, that prohibits the
manufacture, import, export, distribution, or
dispensing of a controlled substance (or a counterfeit
substance) or the possession of a controlled substance
(or a counterfeit substance) with intent to
manufacture, import, export, distribute, or dispense.”
Application Note 1 to said Guideline section clarifies
that the definition of “controlled substance offense”
includes “the offenses of aiding and abetting,
conspiring, and attempting to commit such offenses.”

17a
Defendant, however, posits that section 2K2.1(a)(3)
if inapplicable for he claims that his section 846
conspiracy conviction does not satisfy the Guidelines’
definition of a controlled substance offense “because
its elements do not track the generic definition of
conspiracy.” Objections, at p. 2. In making this
assertion, he relies in the unpublished opinion of the
Court of Appeals for the Fourth Circuit in United
States v. Whitley, 737 Fed. Appx. 147 (4th Cir. 2018).
There, the Court held:
Because the Guidelines do not define
“conspiracy,” the term “should be understood to
refer to the generic, contemporary meaning of
the crime.” [United States v. McCollum, 885
F.3d 300, 307 (4th Cir. 2018)] (internal
quotation marks omitted). An overt act is an
element of the generic definition of conspiracy.
Id. at 308. Comparing the elements of
conspiracy under 21 U.S.C. § 846 to this generic
definition, it is clear that they do not
correspond to generic conspiracy. The elements
of conspiracy under § 846 require the
Government to prove only that: “(1) an
agreement to [distribute and] possess cocaine
[base] with intent to distribute existed between
two or more persons; (2) the defendant knew of
the conspiracy; and (3) the defendant
knowingly and voluntarily became a part of
th[e] conspiracy.” United States v. Burgos, 94
F.3d 849, 857 (4th Cir. 1996) (en banc). Unlike
generic conspiracy, a conviction under § 846
does not require the Government to prove any
overt act. United States v. Shabani, 513 U.S.
10, 11, 115 S.Ct. 382, 130 L.Ed. 2d 225 (1994);

18a
United States v. Min, 704 F.3d 314, 321 (4th
Cir. 2013). Instead, the “gravamen” of the crime
is “an agreement to effectuate a criminal act.”
Burgos, 94 F.3d at 857 (internal quotation
marks omitted). Finally, because § 846 does not
require an overt act, “it criminalizes a broader
range of conduct than that covered by generic
conspiracy.” McCollum, 885 F.3d at 309.
Accordingly, Whitley’s prior § 846 conspiracy
convictions cannot support his enhanced
sentencing as a career offender because they
are not categorically controlled substance
offenses.
Defendant’s argument, however, clashes with
precedent from the Court of Appeals for the First
Circuit. In United States v. Piper, 35 F.3d 611 (1st
Cir. 1994), the Court validated the district court’s
ruling that defendant’s conspiracy conviction
under 21 U.S.C. § 846 qualified as a controlled
substance offense under Section 4B1.2 and its
Application Note 1 for purposes of applying the
career offender guideline, Section 4B1.1. And in its
footnote 3, it further observed that while “the lower
court ruled that the conspiracy conviction
constituted a triggering offense . . . the relevant
definitions are substantially identical, and,
therefore, answering the question of whether a
conspiracy charge can constitute a triggering
offense for purposes of the career offender
guideline necessarily answers the analogous
question of whether a conspiracy conviction can
constitute a predicate offense for such purposes.”
Unless and until the holding of Piper is revisited

19a
by the Court of Appeals, we cannot follow the
ruling of the Fourth Circuit in Whitley.
Applying the holding of Piper to this case, there
is no logical reason why we should not consider
defendant’s Section 846 conspiracy conviction as a
controlled substance offense under Section 4B1.2
and its Application Note 1 for purposes of applying
Section 2K2.1(a)(3). Thus, we find that defendant’s
BOL was correctly determined under Section
2K2.1(a)(3) and his objection to its application is
hereby OVERRULED.
SO ORDERED.
At San Juan, Puerto Rico, on April 30, 2019.

S/CARMEN CONSUELO CEREZO
United States District Judge

20a
APPENDIX C
_________
STATUTORY AND SENTENCING GUIDELINES
PROVISIONS INVOLVED
_________
1.

18 U.S.C. § 371 provides:

If two or more persons conspire either to commit any
offense against the United States, or to defraud the
United States, or any agency thereof in any manner
or for any purpose, and one or more of such persons do
any act to effect the object of the conspiracy, each shall
be fined under this title or imprisoned not more than
five years, or both.
If, however, the offense, the commission of which is
the object of the conspiracy, is a misdemeanor only,
the punishment for such conspiracy shall not exceed
the maximum punishment provided for such
misdemeanor.
2.

21 U.S.C. § 841 provides in pertinent part:

(a) Unlawful acts
Except as authorized by this subchapter, it shall be
unlawful for any person knowingly or intentionally-(1) to manufacture, distribute, or dispense, or
possess with intent to manufacture, distribute, or
dispense, a controlled substance; or
(2) to create, distribute, or dispense, or possess
with intent to distribute or dispense, a counterfeit
substance.
*

*

*

*

*

21a
3.

21 U.S.C. § 846 provides:

Any person who attempts or conspires to commit any
offense defined in this subchapter shall be subject to
the same penalties as those prescribed for the offense,
the commission of which was the object of the attempt
or conspiracy.
4.

U.S.S.G. § 4B1.1 provides:

(a) A defendant is a career offender if (1) the
defendant was at least eighteen years old at the time
the defendant committed the instant offense of
conviction; (2) the instant offense of conviction is a
felony that is either a crime of violence or a controlled
substance offense; and (3) the defendant has at least
two prior felony convictions of either a crime of
violence or a controlled substance offense.
(b) Except as provided in subsection (c), if the
offense level for a career offender from the table in this
subsection is greater than the offense level otherwise
applicable, the offense level from the table in this
subsection shall apply. A career offender's criminal
history category in every case under this subsection
shall be Category VI.
Offense Statutory Maximum

Offense
Level

(1) Life

37

(2) 25 years or more

34

(3) 20 years or more, but less than 24
years

32

22a
(4) 15 years or more, but less than 20
years

29

(5) 10 years or more, but less than 15
years

24

(6) 5 years or more, but less than 10
years

17

(7) More than 1 year, but less than 5
years

12.

(c) If the defendant is convicted of 18 U.S.C.
§ 924(c) or § 929(a), and the defendant is determined
to be a career offender under subsection (a), the
applicable guideline range shall be determined as
follows:
(1) If the only count of conviction is 18 U.S.C.
§ 924(c) or § 929(a), the applicable guideline range
shall be determined using the table in subsection
(c)(3).
(2) In the case of multiple counts of conviction in
which at least one of the counts is a conviction
other than a conviction for 18 U.S.C. § 924(c) or
§ 929(a), the guideline range shall be the greater
of-(A) the guideline range that results by adding
the mandatory minimum consecutive penalty
required by the 18 U.S.C. § 924(c) or
§ 929(a) count(s) to the minimum and the
maximum of the otherwise applicable guideline
range determined for the count(s) of conviction
other than the 18 U.S.C. § 924(c) or
§ 929(a) count(s); and

23a
(B) the guideline range determined using the
table in subsection (c)(3).
(3) Career Offender Table for 18 U.S.C. § 924(c) or
§ 929(a) Offenders
§ 3E1.1 Reduction

Guideline Range for the 18
U.S.C. § 924(c) or § 929(a)
Counts

No reduction

360-life

2-level reduction

292-365

3-level reduction

262-327.

5.

U.S.S.G. § 4B1.2 provides in pertinent part:

(a) The term “crime of violence” means any offense
under federal or state law, punishable by
imprisonment for a term exceeding one year, that-(1) has as an element the use, attempted use, or
threatened use of physical force against the person
of another, or
(2)
is
murder,
voluntary
manslaughter,
kidnapping, aggravated assault, a forcible sex
offense, robbery, arson, extortion, or the use or
unlawful possession of a firearm described in 26
U.S.C. § 5845(a) or explosive material as defined
in 18 U.S.C. § 841(c).
(b) The term “controlled substance offense” means
an offense under federal or state law, punishable by
imprisonment for a term exceeding one year, that
prohibits
the
manufacture,
import,
export,
distribution, or dispensing of a controlled substance
(or a counterfeit substance) or the possession of a

24a
controlled substance (or a counterfeit substance) with
intent to manufacture, import, export, distribute, or
dispense.
(c) The term “two prior felony convictions” means (1)
the defendant committed the instant offense of
conviction subsequent to sustaining at least two
felony convictions of either a crime of violence or a
controlled substance offense (i.e., two felony
convictions of a crime of violence, two felony
convictions of a controlled substance offense, or one
felony conviction of a crime of violence and one felony
conviction of a controlled substance offense), and (2)
the sentences for at least two of the aforementioned
felony convictions are counted separately under the
provisions of § 4A1.1(a), (b), or (c). The date that a
defendant sustained a conviction shall be the date
that the guilt of the defendant has been established,
whether by guilty plea, trial, or plea of nolo
contendere.
COMMENTARY
<Application Notes:>
<1. Definitions.--For purposes of this guideline-- >
<“Crime of violence” and “controlled substance
offense” include the offenses of aiding and abetting,
conspiring, and attempting to commit such offenses.>
<“Forcible sex offense” includes where consent to the
conduct is not given or is not legally valid, such as
where consent to the conduct is involuntary,
incompetent, or coerced. The offenses of sexual abuse
of a minor and statutory rape are included only if the
sexual abuse of a minor or statutory rape was (A) an

25a
offense described in 18 U.S.C. § 2241(c) or (B) an
offense under state law that would have been an
offense under section 2241(c) if the offense had
occurred within the special maritime and territorial
jurisdiction of the United States.>
<“Extortion” is obtaining something of value from
another by the wrongful use of (A) force, (B) fear of
physical injury, or (C) threat of physical injury.>
<Unlawfully possessing a listed chemical with
intent to manufacture a controlled substance (21
U.S.C. § 841(c)(1)) is a “controlled substance offense.”>
<Unlawfully possessing a prohibited flask or
equipment with intent to manufacture a controlled
substance (21 U.S.C. § 843(a)(6)) is a “controlled
substance offense.”>
<Maintaining any place for the purpose of
facilitating a drug offense (21 U.S.C. § 856) is a
“controlled substance offense” if the offense of
conviction established that the underlying offense
(the offense facilitated) was a “controlled substance
offense.”>
<Using a communications facility in committing,
causing, or facilitating a drug offense (21 U.S.C.
§ 843(b)) is a “controlled substance offense” if the
offense of conviction established that the underlying
offense (the offense committed, caused, or facilitated)
was a “controlled substance offense.”>
<A violation of 18 U.S.C. § 924(c) or § 929(a) is a
“crime of violence” or a “controlled substance offense”
if the offense of conviction established that the
underlying offense was a “crime of violence” or a

26a
“controlled substance offense”. (Note that in the case
of a prior 18 U.S.C. § 924(c) or § 929(a) conviction, if
the defendant also was convicted of the underlying
offense, the sentences for the two prior convictions
will be treated as a single sentence under § 4A1.2
(Definitions and Instructions for Computing Criminal
History).)>
<“Prior felony conviction” means a prior adult
federal or state conviction for an offense punishable
by death or imprisonment for a term exceeding one
year, regardless of whether such offense is specifically
designated as a felony and regardless of the actual
sentence imposed. A conviction for an offense
committed at age eighteen or older is an adult
conviction. A conviction for an offense committed prior
to age eighteen is an adult conviction if it is classified
as an adult conviction under the laws of the
jurisdiction in which the defendant was convicted
(e.g., a federal conviction for an offense committed
prior to the defendant's eighteenth birthday is an
adult conviction if the defendant was expressly
proceeded against as an adult).>
*
6.

*

*

*

*

U.S.S.G. § 2K2.1 provides in pertinent
part:

(a) Base Offense Level (Apply the Greatest):
(1) 26, if (A) the offense involved a (i) semiautomatic
firearm that is capable of accepting a large capacity
magazine; or (ii) firearm that is described in 26 U.S.C.
§ 5845(a); and (B) the defendant committed any part
of the instant offense subsequent to sustaining at

27a
least two felony convictions of either a crime of
violence or a controlled substance offense;
(2) 24, if the defendant committed any part of the
instant offense subsequent to sustaining at least two
felony convictions of either a crime of violence or a
controlled substance offense;
(3) 22, if (A) the offense involved a (i) semiautomatic
firearm that is capable of accepting a large capacity
magazine; or (ii) firearm that is described in 26 U.S.C.
§ 5845(a); and (B) the defendant committed any part
of the instant offense subsequent to sustaining one
felony conviction of either a crime of violence or a
controlled substance offense;
(4) 20, if-(A) the defendant committed any part of the
instant offense subsequent to sustaining one
felony conviction of either a crime of violence or a
controlled substance offense; or
(B) the (i) offense involved a (I) semiautomatic
firearm that is capable of accepting a large
capacity magazine; or (II) firearm that is described
in 26 U.S.C. § 5845(a); and (ii) defendant (I) was a
prohibited person at the time the defendant
committed the instant offense; (II) is convicted
under 18 U.S.C. § 922(d); or (III) is convicted under
18 U.S.C. § 922(a)(6) or § 924(a)(1)(A) and
committed the offense with knowledge, intent, or
reason to believe that the offense would result in
the transfer of a firearm or ammunition to a
prohibited person;
*

*

*

*

*

28a
<Application Notes:>
<1. Definitions.--For purposes of this guideline:>
*

*

*

*

*

<“Controlled substance offense” has the meaning
given that term in § 4B1.2(b) and Application Note 1
of the Commentary to § 4B1.2 (Definitions of Terms
Used in Section 4B1.1).>
<“Crime of violence” has the meaning given that
term in § 4B1.2(a) and Application Note 1 of the
Commentary to § 4B1.2.>
*

*

*

*

*

29a
APPENDIX D
_________
[N.B.: the following opinion was subsequently
withdrawn on October 29, 2012, but is publicly
available at Appendix A to Petition for Rehearing En
Banc, United States v. Rodriguez-Escareno, 700 F.3d
751 (5th Cir. 2012) (No. 11-41063)]
_________
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_________
No. 11-41063
_________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JESUS RODRIGUEZ-ESCARENO,
Defendant-Appellant.
_________
Filed October 23, 2012
_________
Appeal from the United States District Court
for the Southern District of Texas
_________
Before WIENER, ELROD, and SOUTHWICK, Circuit
Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
The defendant pled guilty to illegal reentry following
a deportation. He had earlier been convicted of a
conspiracy to distribute methamphetamine. At his

30a
sentencing for illegal reentry, the district court
increased his sentence because it considered his
earlier crime to be a “drug trafficking offense” as that
term is defined by the Sentencing Guidelines. See
U.S.S.G. § 2L1.2(b)(1)(A)(i). The defendant did not
object. On appeal, he argues the enhancement was
improper. Under plain-error review, we agree. We
VACATE and REMAND.
FACTUAL & PROCEDURAL HISTORY
In April 2011, Texas authorities stopped a vehicle
for exceeding the speed limit. One of the passengers
was Jesus Rodriguez-Escareno, who was in the United
States illegally after having been deported in 2006. He
was detained. Subsequently, a grand jury in the
United States District Court for the Southern District
of Texas returned a one-count indictment against him
for being found in the United States illegally following
a deportation. See 8 U.S.C. § 1326. He pled guilty.
A Presentence Investigation Report (“PSR”) was
prepared. Using the Sentencing Guidelines, the PSR
calculated that the base offense level was 8. The
criminal history section of the PSR listed a 2001
conviction in the United States District Court for the
Southern District of Iowa of conspiracy to distribute
methamphetamine. The judgment stated that
Rodriguez-Escareno had been charged under 21
U.S.C. §§ 846 and 841(b)(1)(B). Section 846 provides
the same penalty for a conspiracy to commit one of the
drug offenses listed in that chapter as for the
underlying offense. The PSR determined that
Rodriguez-Escareno’s previous crime was a “drug
trafficking offense,” which permitted the application
of the 16-level enhancement under U.S.S.G.

31a
§ 2L1.2(b)(1)(A)(i). The offense level was reduced
because he accepted responsibility for his illegal
reentry. The PSR calculated a sentencing range of 41
to 51 months of imprisonment. Rodriguez-Escareno
did not object to these calculations, and the district
court adopted the PSR. Rodriguez-Escareno received
a 48-month prison sentence. On appeal, he challenges
only his sentence.
DISCUSSION
Rodriguez-Escareno did not object to the application
of the Sentencing Guidelines. Consequently, we
review only for plain error. United States v. Gonzales,
642 F.3d 504, 505 (5th Cir. 2011). Plain error exists
when “(1) there was an error; (2) the error was clear
and obvious; and (3) the error affected the defendant’s
substantial rights.” United States v. GuerreroRobledo, 565 F.3d 940, 942 (5th Cir. 2009) (quotation
marks and citation omitted). If all three elements are
proved, we have “the discretion to remedy the error –
discretion which ought to be exercised only if the error
seriously affect[s] the fairness, integrity, or public
reputation of judicial proceedings.” United States v.
Escalante-Reyes, 689 F.3d 415, 419 (5th Cir. 2012) (en
banc) (quotation and citation omitted).
The issue in this case is whether a conspiracy
conviction under 21 U.S.C. § 846 satisfies the
requirements for the 16-level enhancement. The
enhancement is for “conspiring” to commit an offense,
but we must decide whether the elements of a Section
846 conspiracy are consistent with the meaning of
“conspiring” in Application Note 5 of U.S.S.G.
§ 2L1.2(b)(1)(A)(i). This question has not been
squarely decided in this circuit.

32a
The district court implicitly held there was a
sufficient similarity when it applied the 16-level
enhancement. Rodriguez-Escareno argues that was
plainly erroneous because a violation of Section 846
does not require the government to prove that an
overt act occurred in furtherance of the conspiracy,
but the general usage of the word “conspiracy” carries
that requirement. We look for meaning in two sources:
definitions contained within the Guidelines itself and
the word’s “generic, contemporary meaning.” See
United States v. Sanchez, 667 F.3d 555, 560 (5th Cir.
2012); see also United States v. Vargas-Duran, 356
F.3d 598, 602 (5th Cir. 2004) (en banc).
Because the Guidelines do not define “conspiracy,”
we seek the term’s generic, contemporary meaning.
Sanchez, 667 F.3d at 560. That meaning can be
revealed by “the Model Penal Code, treatises, federal
and state law, dictionaries, and the Uniform Code of
Military Justice.” United States v. SantiestebanHernandez, 469 F.3d 376, 379 (5th Cir. 2006). The
meaning “generally corresponds to the definition in a
majority of the States’ criminal codes.” United States
v. Tellez-Martinez, 517 F.3d 813, 815 (5th Cir. 2008).
A leading legal dictionary defines “conspiracy” to
require “(in most states) action or conduct that
furthers the agreement.” Black’s Law Dictionary 329
(9th ed. 2009). A leading legal treatise agrees that is
the majority view. 2 Walter R. LaFave, Substantive
Criminal Law § 12.2 (2d ed. 2003). We too have found
that “most jurisdictions” require proof of an overt act
to establish a conspiracy. United States v. MendezCasarez, 624 F.3d 233, 240 (5th Cir. 2010). In a
concurring opinion, Judge Higginbotham explained
that the weight of authority shows the general

33a
meaning “includes a requirement that at least one of
the conspirators take an overt act in furtherance of
the agreement.” United States v. Gore, 636 F.3d 728,
745 (5th Cir. 2011) (Higginbotham, J., concurring).
We conclude from these sources that the generic,
contemporary meaning of the word “conspiracy”
contains an overt-act requirement. It has been settled
since 1994 that Section 846 does not require that an
overt act occur. United States v. Shabani, 513 U.S. 10,
13-14 (1994). It follows that the “conspiring” in
Application Note 5 of Section 2L1.2(b)(1)(A)(i) of the
Guidelines does not reach judgments of conviction of
a conspiracy under Section 846.
The government concedes that a Section 846
conspiracy is not one that fits the generic,
contemporary meaning of a conspiracy. It nonetheless
argues that use of the enhancement was not
erroneous. Its novel argument is that the meaning of
a statutory term in a defendant’s prior conviction
under a federal criminal statute – or at least under
Section 846 – should be deemed to be consistent with
the meaning of the same term in the federal
Guidelines. A term’s generic, contemporary meaning
should not matter when we are concerned with a prior
federal conviction of the relevant crime. It is true that
the caselaw in this area is primarily concerned with
matching terms in state criminal statutes to the
relevant term in the Guidelines. Still, there is no hint
in the caselaw that different rules apply when the
prior conviction is a federal one. Our conclusion
remains that the enhancement was error.
We have found an erroneous application of the
Guidelines. It must then also be shown that the error

34a
was obvious. Guerrero-Robledo, 565 F.3d at 942. For
an error to be of that character, its existence cannot
be subject to reasonable dispute. Puckett v. United
States, 556 U.S. 129, 135 (2009). Although many
issues of first impression can be reasonably debated,
decisions on issues of first impression may be clearly
wrong. United States v. Spruill, 292 F.3d 207, 215
n.10 (5th Cir. 2002); accord United States v.
Burroughs, 613 F.3d 233, 244 (D.C. Cir. 2010). A
sentencing question of first impression may have an
answer that “clearly and plainly follows from the
terms of [the Guidelines], the wording of the . . .
statute and the indictment, and our jurisprudence.”
United States v. Insaulgarat, 378 F.3d 456, 471 (5th
Cir. 2004).
By following the proper analytical path of examining
a legal dictionary or leading treatise and applying our
precedents, the error here clearly appears. Cf. United
States v. Blocker, 612 F.3d 413, 416 (5th Cir. 2010).
The government has not even argued that the generic,
contemporary meaning of conspiracy omits an overtact requirement. No precedent supports the district
court’s interpretation of “conspiracy” as not requiring
an overt act. The error was plain.
We next consider whether this obvious error affected
Rodriguez-Escareno’s substantial rights. RodriguezEscareno must “demonstrate that the error affected
the outcome of the district court proceedings.”
Escalante-Reyes, 689 F.3d at 424 (quotation marks
and citation omitted). We examine “whether the error
increased the term of a sentence, such that there is a
reasonable probability of a lower sentence on
remand.” Id. (quotation marks and citation omitted).
That standard has been met here.

35a
Properly calculated under the Guidelines, the
sentencing range should have been 15 to 21 months.
This is a substantial difference from the 41 to 51
months determined by the district court. There is a
reasonable probability that because of the erroneous
16-level enhancement, Rodriguez-Escareno received a
sentence of 48 months, well above the correct
Guidelines range. Similar circumstances have been
found to affect a defendant’s substantial rights. E.g.,
United States v. Garza-Lopez, 410 F.3d 268, 273, 275
(5th Cir. 2005). As in this case, the district court in
Garza-Lopez
improperly
applied
a
16-level
enhancement for a drug trafficking offense. We held
that the error affected his substantial rights. Id. at
275. Rodriguez-Escareno’s substantial rights also
were affected by this plain error.
Because the three requirements to establish plain
error have been met, we have discretion to reverse if
the error affected “the fairness, integrity or public
reputation of his sentencing proceedings.” EscalanteReyes, 689 F.3d at 425.
The plain error in applying the “drug trafficking
offense” enhancement resulted in a Guidelines range
of 41 to 51 months and an actual sentence of 48
months. The correctly calculated Guidelines range
was 15 to 21 months. We have previously exercised
our discretion to vacate a sentence when the error in
the application of the Guidelines resulted in a range
that was significantly higher than the correctly
calculated Guidelines range. See, e.g., United States v.
Gonzales, 484 F.3d 712, 716 (5th Cir. 2007) (per
curiam). We are convinced here that this error, which
caused a sentence to be more than three times the low
end of the Guideline range, “seriously affects the

36a
fairness, integrity, or public reputation of his
sentencing proceedings.”
Accordingly, we VACATE
REMAND for re-sentencing.

the

sentence

and

37a
APPENDIX E
_________
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_________
No. 11-41063
_________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JESUS RODRIGUEZ-ESCARENO,
Defendant-Appellant.
_________
Filed October 29, 2012
_________
Appeal from the United States District Court
for the Southern District of Texas
_________
Before WIENER, ELROD, and SOUTHWICK, Circuit
Judges.
PER CURIAM:
IT IS ORDERED that the opinion filed in this case
on October 23, 2012 is WITHDRAWN. A subsequent
opinion will issue at a later date.

